                                     TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



July 30, 2014

James R. Dalrymple, LP 3K-C

REQUEST FOR MANAGEMENT DECISION – EVALUATION 2013-15135 – ACTIONS TO
ADDRESS COAL PLANT SYSTEMS AND PROGRAMS WITH POOR RATINGS



Attached is the subject final report for your review and action. Your written comments to
the draft report have been incorporated in the report. Please advise us of your planned
actions in response to our findings within 60 days of the date of this report. In accordance
with the Inspector General Act of 1978, as amended, the Office of the Inspector General is
required to report to Congress semiannually regarding evaluations that remain unresolved
after 6 months from the date of report issuance.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Janell B. Cunio, Auditor, at (423) 785-4811 or
Gregory R. Stinson, Director, Evaluations, at (423) 633-7367. We appreciate the courtesy
and cooperation received from your staff during this review.



Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K

JC:FAJ
Attachment
cc (Attachment):
     William D. Johnson, WT 7B-K
     Dwain K. Lanier, MR 3K-C
     Justin C. Maierhofer, WT 7B-K
     Richard W. Moore, ET 4C-K
     R. Windle Morgan, WT 4D-K
     Charles G. Pardee, WT 7B-K
     TVA Board of Directors
     OIG File No. 2013-15135


 WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted, distributed,
          and disposed of in accordance with TVA policy relating to Information Security. This information
           is not to be further distributed without prior approval of the Inspector General or his designee.

                                     TVA RESTRICTED INFORMATION
                               TVA RESTRICTED INFORMATION


Office of the Inspector General                         Evaluation Report
                                                                  To the Senior Vice President,
                                                                  Power Operations




REVIEW OF ACTIONS TO
ADDRESS COAL PLANT
SYSTEMS AND PROGRAMS
WITH POOR RATINGS




Audit Team                                                                                            Evaluation 2013-15135
Janell B. Cunio                                                                                                July 30, 2014
John A. Jacosalem
Deana D. Scoggins
             WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
             distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                     is not to be further distributed without prior approval of the Inspector General or his designee.


                             TVA RESTRICTED INFORMATION
Office of the Inspector General                                Evaluation Report




ABBREVIATIONS
CY                         Calendar Year
FPG                        Fossil Power Group
MRC                        Management Review Committee
TVA                        Tennessee Valley Authority




Evaluation 2013-15135

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                               Evaluation Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY .................................................................... i

BACKGROUND ................................................................................. 1

    PROGRAM HEALTH REPORTS .................................................................... 1

    SYSTEM HEALTH REPORTS ........................................................................ 2

OBJECTIVE, SCOPE, AND METHODOLOGY .................................. 4

FINDINGS ......................................................................................... 5
    ACTIONS HAVE BEEN TAKEN TO ADDRESS SOME PROGRAMS
    AND SYSTEMS WITH POOR HEALTH .......................................................... 5

    SYSTEM HEALTH REPORTS WERE NOT COMPLETED OR
    DOCUMENTED AS REQUIRED ..................................................................... 5

    REQUIRED PROGRAM HEALTH REPORTS COULD NOT
    BE PROVIDED................................................................................................ 6

    REDUCING HEALTH REPORT REQUIREMENTS TO
    RECOMMENDATIONS COULD MAKE IT HARDER TO
    MANAGE EQUIPMENT RELIABILITY RISK ................................................... 6

RECOMMENDATIONS...................................................................... 7

MANAGEMENT’S COMMENTS ........ …………………………………………7


APPENDIX
MEMORANDUM DATED JULY 9, 2014, FROM JAMES R. DALRYMPLE TO
ROBERT E. MARTIN




Evaluation 2013-15135

                                     TVA RESTRICTED INFORMATION
                      Evaluation 2013-15135 – Actions to Address Coal
                      Plant Systems and Programs With Poor Ratings
                                           EXECUTIVE SUMMARY

     Why the OIG Did This Evaluation

         During a prior review of how Tennessee Valley Authority (TVA) organizations
         assess the condition of its assets, we learned asset condition assessments
         done by the Fossil Power Group (FPG) had determined some generation
         assets are in poor condition. As a follow up to the prior work, we initiated a
         review to determine whether TVA is taking actions to address FPG systems
         and programs with poor ratings. For the purpose of this report, poor ratings
         are defined as those designated red or yellow. Red ratings indicate
         unacceptable performance and require excess monitoring and resources to
         maintain or operate. Yellow ratings indicate performance needs
         improvement and require additional attention.

     What the OIG Found

         We found actionsi were taken to address some programs and systems
         with poor health. We identified that 785 out of 1,617 programs and
         systems within FPG had been rated red or yellow and randomly selected
         35 programs and systems for detailed review. Actions taken by FPG to
         address the poor health resulted in an improvement in color rating or
         overall health of 17 programs and systems. However, there was no
         upgraded color rating or improvement in system health for 18 systems. Of
         these 18 systems, 7 had no actions completed while 11 had some actions
         completed without improvement in system health. The major reason cited
         for not completing actions was lack of funding.

         We also found system health reports were not completed or documented,
         and required program health reports could not be provided. Additionally,
         FPG-SPP-09.045, Performance of Engineering Programs Standard
         Processes and Procedures, (program health report process) and FPG-
         SPP-09.030.03, Standard Programs and Processes, (system health report
         process) were superseded by engineering guidance documents, which
         have no requirements, only recommendations. This will potentially
         increase the number of health reports not completed or not completed in a
         timely manner. The absence of accurate and timely equipment health
         reports could make it more difficult for TVA to effectively manage
         equipment reliability risk.




i
    For the purpose of this report, actions are defines as completed Capital Projects, Problem Evaluation
    Reports, Work Orders, and Action Tracking Actions.
                                                                                                      Page i

                                    TVA RESTRICTED INFORMATION
           Evaluation 2013-15135 – Actions to Address Coal
           Plant Systems and Programs With Poor Ratings
                           EXECUTIVE SUMMARY

What the OIG Recommends

  We recommend the Senior Vice President, Power Operations:

     Document justification when actions are not taken to address systems
      and programs with red and yellow ratings.
     Reinforce the importance of consistent documentation of system health
      reports.
     Consider the potential impact of eliminating the requirement to do
      asset health assessments on TVA’s non-nuclear asset condition risk
      and determine a schedule for completing health assessments that will
      adequately mitigate the risk of equipment failure.

TVA Management’s Comments

  TVA management responded that they will incorporate our feedback into
  their review effort to have a consistent approach to system health with
  appropriate documentation. See the Appendix for TVA’s complete
  response.




                                                                      Page ii

                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                      Evaluation Report


BACKGROUND
Engineering programs are focused, corporate-led, engineering work efforts
requiring a systematic approach for implementation, monitoring, and improvement
over an extended period of time. FPG-SPP-09.045, Performance of Engineering
Programs Standard Processes and Procedures, (program health report process)
provides guidance for implementing and managing Tennessee Valley Authority’s
(TVA) Fossil Power Group (FPG) Engineering Programs. According to the program
health report process, engineering programs serve as a conscience for the
organization and provides governance for plant assets and program performance
needs to be continually assessed to ensure that each program’s performance is
meeting its objective and therefore providing appropriate value to TVA.

System health reports are the primary programmatic documents FPG engineers
utilize annually to monitor the status of plant systems and components. FPG-SPP-
09.030.03, System Health Reports Standard Programs and Processes, (system
health reports process) provides a standardized, systematic approach for
preparation, review, approval, and documentation when performing system health
reports. According to TVA, information gathered from the system health reports is
used in risk assessments of asset performance as well as project justification and
ranking of the capital portfolio.

PROGRAM HEALTH REPORTS
The program health reports process requires that program health reports be
completed twice a year and assigned a color rating based on performance.
Program health reports color ratings are defined as follows:

   Green (Acceptable) – Program performance is meeting defined processes,
    and small areas of improvement are identified and actions are in place.
   Yellow (Needs Improvement) – Program performance is not meeting defined
    processes and requires a Recovery Action Plan with appropriate correct
    actions identified and entered into the Corrective Action Program.
   Red (Unsatisfactory/Significant Weaknesses) – Program performance does
    not meet management expectation or is not implemented at the plan and
    requires a Recovery Action Plan with appropriate corrective actions identified
    and entered into the Corrective Action Program.

The program health report process requires identification of issues impacting
program health, development of Corrective Action Programs to resolve the issues,
and return the program to acceptable performance for all programs rated red or
yellow. Presentation to the plant Management Review Committee (MRC) at first
opportunity is also required for programs rated red or yellow to ensure plant
management is aware of program issues and to obtain sponsorship for identified
corrective actions.

Evaluation 2013-15135                                                          Page 1

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                             Evaluation Report


The tables below show a breakdown of the program health report color ratings for
Calendar Year (CY) 2011 through 2012, overall and by plant.1

                        Table 1: Coal Program Health Rating Totals
        Green                                70                                       34%
        Yellow                              121                                       59%
         Red                                 15                                        7%


          Table 2: Coal Program Health Color Rating Breakdown by Plant
                                                           Color Rating
         Plant                     Green                      Yellow                          Red
    Allen                      0             --            17       85.0%               3           15.0%
    Bull Run                   7           38.9%           10       55.6%               1            5.6%
    Colbert                    6           30.0%           12       60.0%               2           10.0%
    Cumberland                 8           40.0%           11       55.0%               1            5.0%
    Gallatin                   7           36.8%           12       63.2%               0             --
    John Sevier                7           58.3%            5       41.7%               0             --
    Johnsonville              10           52.6%            7       36.8%               2           10.5%
    Kingston                   6           31.6%           11       57.9%               2           10.5%
    Paradise                   4           20.0%           14       70.0%               2           10.0%
    Shawnee                    9           47.4%            9       47.4%               1            5.3%
    Widows Creek               6           30.0%           13       65.0%               1            5.0%


SYSTEM HEALTH REPORTS
System health reports are assigned color ratings based on system health that
includes issues such as risk assessments, late or deferred preventive
maintenance on critical components, and safety deficiencies. The color ratings
were defined2 as follows:

     Green (Acceptable) – Requires no additional attention at this time.
     Blue (Watch) – Current activities/performance actions in progress are
      appropriate and on schedule, and system components require attention.
     Yellow (Needs Improvement) – Gaps exists and additional attention is needed.
     Red (Not Acceptable) – Requires excessive monitoring/resources to maintain
      or operate.

Site system engineers are responsible for preparing and documenting the system
health reports for assigned systems, presenting the report to the MRC according
to the reporting frequencies as defined in the system health reports process, and
ensuring corrective actions are initiated as a result of the review. These actions
1
     These tables are based on data collected from the overall population before exclusions explained later in
     the Objective, Scope, and Methodology section of this report. Also, the data was obtained with only the
     program health reports available. Details on missing program health reports can be found in the Findings
     section.
2
     These definitions have since been removed to allow system engineers flexibility in assigning ratings.
Evaluation 2013-15135                                                                                 Page 2

                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                                             Evaluation Report


are documented in a Maximo Problem Evaluation Report or an Action Tracking
Action. Additional system health reports process requirements are as follows:

     The MRC reviews all action items for systems rated red.
     Site Engineering Managers ensure that system health reports are accurate
      and timely with action items to improve the system health rating.
     The MRC reviews all system health reports and approved action plans for red
      and yellow systems.

The tables below show a breakdown of the system health report color ratings for
CY2011 through CY2012, overall and by plant.3

                         Table 3: Coal System Health Rating Totals
          Green                             365                                        26%
           Blue                             397                                        28%
          Yellow                            418                                        30%
           Red                              231                                        16%


           Table 4: Coal System Health Color Rating Breakdown by Plant
                                                        Color Ratings
        Plant                Green                 Blue               Yellow                        Red
    Allen                5         5.0%         18     17.8%      29        28.7%             49          48.5%
    Bull Run             7        13.5%         10     19.2%      23        44.2%             12          23.1%
    Colbert             21        28.4%         24     32.4%      19        25.7%             10          13.5%
    Cumberland           4        10.5%          1      2.6%      16        42.1%             17          44.7%
    Gallatin            44        40.4%         47     43.1%      15        13.8%               3          2.8%
    John Sevier          0          --           4     30.8%        8       61.5%               1          7.7%
    Johnsonville         4         3.9%         30     29.4%      59        57.8%               9          8.8%
    Kingston           142        34.1%        126     30.2%     101        24.2%             48          11.5%
    Paradise            11        10.3%         39     36.4%       34       31.8%              23         21.5%
    Shawnee            120        37.9%         86     27.1%       91       28.7%              20          6.3%
    Widows               7         8.6%         12     14.8%       23       28.4%              39         48.1%
    Creek




3
     These tables are based on data collected from the overall population before exclusions explained later in
     the Objective, Scope, and Methodology section of this report.
Evaluation 2013-15135                                                                                  Page 3

                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                                            Evaluation Report


OBJECTIVE, SCOPE, AND METHODOLOGY

During a prior review of how TVA organizations assess the condition of its assets,
we learned that asset condition assessments done by FPG determined some
generation assets are in poor condition. As a follow up to the prior work, we
initiated a review to determine whether TVA is taking actions to address FPG
systems and programs with poor ratings. For the purpose of this report, poor
ratings are defined as those designated red or yellow. We reviewed system and
program health reports completed in CY2011 through CY2012.

In order to achieve our objective, we:

    Reviewed processes and procedures and interviewed key TVA personnel to
     determine what steps the organization is required to take for red and yellow
     health reports.
    Selected a sample of 35 out of 442 red and yellow system and program health
     reports for CY2011 through CY2012 to determine if actions were being taken.
     For the purpose of this report, actions are defined as completed Capital
     Projects, Problem Evaluation Reports, Work Orders, and Action Tracking
     Actions.
    Reviewed recent reports, if available, for the 35 sample reports to determine if
     the health of the system or program had improved.

We initially selected a sample of 54 red and yellow system and program health
reports for CY2011 through CY2012 for testing. Information received throughout
the review, as well as TVA’s decisions to idle coal units, required the original
population and resulting sample to be reduced. The following units were
excluded: (1) Allen 1-3; (2) Colbert 1-5; (3) John Sevier 1-4; (4) Johnsonville
1-10; (5) Shawnee 1, 4, 10; (6) and Widows Creek 1-8. Additionally, one other
restriction on the sample for the system health reports was discovered during our
testing. According to TVA personnel, it is possible that not all plants were using
PlantView4 to store system health reports. The population of system health
reports was obtained from a listing pulled from PlantView, so there is the potential
our population was not all inclusive. TVA personnel confirmed there was not a
way to identify reports that were kept outside the PlantView system.

This review was performed in accordance with the Council of the Inspectors
General for Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation.


4
    According to the PlantView manual, PlantView is software that serves to track, assess, and communicate
    equipment/system problems. Information, such as Predictive Maintenance data, visual observations,
    testing, etc., are entered against specific components. This places information from various sources in a
    single location, allowing easy assessment of the overall health of that component thereby ensuring the
    proper actions are chosen for resolution. Because all organizations have access to PlantView, it is
    considered the “ultimate communication tool” for ensuring well-informed decisions are made.
Evaluation 2013-15135                                                                                Page 4

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                                      Evaluation Report


FINDINGS
We found actions were taken to address 17 of the 35 programs and systems with
poor health that resulted in an improvement in health and/or color rating; however,
we found there was no upgraded color rating or improvement in system health for
18 systems. Of these 18 systems, 7 had no actions completed while 11 had some
actions completed without an improvement in system health. We also found
system health reports were not completed or documented, and required program
health reports could not be provided that could lead to inaccurate monitoring and
poor decision making. Additionally, the program health reports process and system
health reports process were superseded by engineering guidance documents,
which have no requirements, only recommendations. The absence of accurate and
timely equipment health reports could make it more difficult for TVA to effectively
manage equipment reliability risk.

ACTIONS HAVE BEEN TAKEN TO ADDRESS SOME PROGRAMS
AND SYSTEMS WITH POOR HEALTH
We found 17 programs and systems had an upgraded color rating or improvement in
system health as a result of actions completed. However, we found that for some
systems, actions needed to improve system health were not taken. We found
18 systems with red and yellow ratings that did not have an upgraded color rating or
improvement in system health. Of these 18 systems, 7 had no actions completed
while 11 had some actions completed without improvement in system health. The
major reason cited for not completing additional actions was lack of funding. For
example, according to a TVA system engineer, actions to address 2 systems with a
yellow rating had not been funded since 2008. Information gathered from the
system health reports is used by TVA in risk assessments of asset performance as
well as project justification and ranking of the capital portfolio. It is reasonable to
believe that pushing back and failing to fund actions to address system health
increases TVA’s risk of equipment failure.

SYSTEM HEALTH REPORTS WERE NOT COMPLETED OR
DOCUMENTED AS REQUIRED
We found system health reports were not completed as required by the system
health reports process.5 The system health reports process provides guidance for
the reporting frequencies of required systems. The system health reports process
also requires system engineers to use PlantView to prepare and document the
system health reports.

We found 18 out of 33 (54.5 percent) of the sample system health reports were
not completed according to the reporting frequency on the system health reports
process. On average, the update for these system health reports was 183 days
5
    The system health reports process was superseded by an engineering guideline document in September
    2013.
Evaluation 2013-15135                                                                          Page 5

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                                             Evaluation Report


past due. Some of the reasons system health reports were not completed include
system engineers getting off schedule due to additional projects, putting update
scheduling on hold due to a potential system health reports process revision, and
recent outages. Failing to complete system health reports as required limits
TVA’s ability to make the best possible decisions about equipment repairs.

There is also a concern that system engineers are not documenting system health
reports consistently. The PlantView Program Manager indicated system
engineers are not consistently using the same tool and other formats may be used
instead of PlantView to store system health reports. Inconsistent documentation
of system health reports could lead to inaccurate monitoring of coal plant systems.

REQUIRED PROGRAM HEALTH REPORTS COULD NOT
BE PROVIDED
We found TVA could not provide program health reports as required by the
program health reports process. The program health report process requires
program health reports are completed twice a year for 15 programs. We asked
TVA to provide copies of the completed reports for CY2011 through CY2012.
TVA was able to provide 22 of the 60 (37 percent) required program health
reports. However, TVA could not provide the other 38 (63 percent) reports.

     Table 5: Required Program Health Reports for CY2011 Through CY20126
                        Required Reports                Provided                     Not Provided
    CY2011                     30                          14                             16
    CY2012                     30                           8                             22



REDUCING HEALTH REPORT REQUIREMENTS TO
RECOMMENDATIONS COULD MAKE IT HARDER TO
MANAGE EQUIPMENT RELIABILITY RISK
The program health reports process has recently been in transition from a Standard
Processes and Procedures to a guidance document. According to TVA
management, they have been working under the assumption since 2012 that the
program health reports process will become a guidance document. The guidance
document gives recommendations instead of requirements. The October 2013 draft
of the Engineering Guidance Document no longer stated program health reports are
completed twice a year and leaves the frequency up to the General Manager,
Compliance and Fleet Support. The system health reports process was also
superseded by an Engineering Guidance Document in September 2013.



6
     Program health reports contain color ratings for each plant involved in that program. The 136 red and
     yellow programs from which our sample was selected is the sum of individual plant ratings included in the
     60 program health reports.
Evaluation 2013-15135                                                                                 Page 6

                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                                            Evaluation Report


TVA has identified asset condition of non-nuclear generation as a Key Enterprise
Risk in fiscal year 2014.7 Replacing health report processes with engineering
guidance documents could make managing this risk more difficult. This will
potentially increase the number of health reports not completed or not completed
in a timely manner. The major reason cited for not taking actions to address poor
health was lack of funding. This makes it imperative that updated health
information be available to make the best decisions for the fleet. The absence of
accurate and timely equipment health reports could make it more difficult for TVA
to effectively manage equipment reliability risk.

RECOMMENDATIONS
We recommend the Senior Vice President, Power Operations:

    Document justification when actions are not taken to address systems and
     programs with red and yellow ratings.
    Reinforce the importance of consistent documentation of system health
     reports.
    Consider the potential impact of eliminating the requirement to do asset health
     assessments on TVA’s non-nuclear asset condition risk and determine a
     schedule for completing health assessments that will adequately mitigate the
     risk of equipment failure.

TVA Management’s Comments – TVA management responded that they will
incorporate our feedback into their review effort to have a consistent approach to
system health with appropriate documentation. They also stated system health
reporting, with appropriate assessments and documentation, will continue to be a
priority in the future. See the Appendix for TVA’s complete response.




7
    TVA’s recent enterprise risk management risk process identified ten key enterprise risks, one of which
    was non-nuclear generation asset condition.
Evaluation 2013-15135                                                                                 Page 7

                                     TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 1 of 2




TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 2 of 2




TVA RESTRICTED INFORMATION
